No. 19-47
IN THE

'upreme Court of the tiniteb &tato
JERYME MORGAN,
Petitioner,
v.
MINH SCHOTT, TIM VEATH, AND HUDSON MAYNARD,
Respondents.
CERTIFICATE OF COMPLIANCE WITH RULE 33.1
As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Amicus Curiae The National Association of Criminal Defense Lawyers in
Support of Petitioner contains 3,567 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 7, 2019.

Anthony F. Shelley
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel for The National Association
of Criminal Defense Lawyers

